Office of Material Loss Reviews
Report No. IDR-10-001


In-Depth Review of the Failure of
EvergreenBank, Seattle, Washington




                                  August 2010
                                      Executive Summary

                                      In-Depth Review of the Failure of
                                      EvergreenBank, Seattle, Washington
                                                                                       Report No. IDR-10-001
                                                                                                August 2010

Why We Did The Audit

The Washington State Department of Financial Institutions (DFI) closed EvergreenBank (Evergreen),
Seattle, Washington on January 22, 2010, and named the FDIC as receiver. On March 1, 2010, the FDIC
notified the Office of Inspector General (OIG) that Evergreen’s total assets at closing were $404.4 million
and the estimated loss to the Deposit Insurance Fund (DIF) was $60.7 million. As of June 30, 2010, the
estimated loss to the DIF had decreased to $52.5 million.

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and Consumer
Protection Act (Financial Reform Act). The Financial Reform Act amends section 38(k) of the Federal
Deposit Insurance Act (FDI Act) by increasing the material loss review (MLR) threshold from $25 million to
$200 million for losses that occur for the period January 1, 2010 through December 31, 2011. Further, the
Financial Reform Act calls for the OIG to perform in-depth reviews of failures when the associated losses are
not material but they involve unusual circumstances. At the time the Financial Reform Act was enacted, we
had issued a draft of this report to FDIC management. As a result, although the estimated loss for Evergreen
no longer meets the threshold requiring an MLR, we decided to complete the audit as an in-depth review and
issue this report.

Consistent with the Financial Reform Act and FDI Act provisions described above, the objectives of this
review were to (1) determine the causes of Evergreen’s failure and the resulting loss to the DIF and
(2) evaluate the FDIC’s supervision of Evergreen, including the FDIC’s implementation of the Prompt
Corrective Action (PCA) provisions of section 38 of the FDI Act.


Background

Evergreen was established as a state nonmember institution in 1971 as Teachers State Bank. During the
late 1970s, the institution’s business focused primarily on processing share drafts (the equivalent of
checks) for credit unions. However, to reflect the institution’s growing interest in consumer and
commercial markets, and to address a public perception that the institution’s products and services were
limited to teachers, the institution changed its name in 1980 to EvergreenBank. By 2000, narrowing
profit margins and competition in the check processing business prompted Evergreen to withdraw from
that activity and pursue consumer and commercial lending. Beginning in 2005, Evergreen began placing
considerable emphasis on commercial real estate (CRE) and acquisition, development, and construction
(ADC) lending in the Seattle metropolitan area. The institution’s ADC lending generally pertained to
speculative condominium and townhouse construction and land development projects.

In addition to a main office in Seattle, Evergreen maintained seven branches throughout the Seattle
metropolitan area. The institution had no affiliates for purposes of Section 23A of the Federal Reserve
Act. Evergreen was wholly-owned by EvergreenBancorp, Inc. (Bancorp), a publicly-traded, one-bank
holding company. As of September 2009, the institution’s directors owned or controlled just over
4 percent of the holding company’s stock. No shareholder owned more than 6 percent of Bancorp’s
stock, and the shares were widely held.




                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                      In-Depth Review of the Failure of
                                      EvergreenBank, Seattle, Washington
                                                                                        Report No. IDR-10-001
                                                                                                 August 2010


Audit Results

Causes of Failure and Loss

Evergreen failed primarily because its Board and management did not effectively manage the risks
associated with the institution’s rapid growth and heavy concentrations in CRE and ADC loans. Lax
oversight of the lending function also contributed to the asset quality problems that developed when
economic conditions in the institution’s lending markets deteriorated. Specifically, the institution
exhibited weak loan underwriting, credit administration, and related monitoring practices. Evergreen also
experienced high staff turnover in the lending function during a critical period for the institution. Further,
Evergreen relied heavily upon wholesale funding sources, primarily brokered deposits and Federal Home
Loan Bank borrowings, to support its lending activities and to maintain adequate liquidity. These funding
sources became restricted when Evergreen’s credit risk profile deteriorated in early 2009, placing a severe
strain on the institution’s liquidity position.

Evergreen’s heavy concentration in CRE and ADC loans, coupled with weak risk management practices,
made the institution vulnerable to a sustained downturn in the Seattle real estate market. Adding to this
vulnerability was a general decline in the institution’s capital levels between 2004 and 2008 while risk in
the loan portfolio was increasing. Evergreen’s declining capital reduced the institution’s ability to absorb
losses due to unforeseen circumstances. During the summer of 2008, the credit quality of Evergreen’s
loan portfolio began to decline. By year-end 2008, the quality of its loan portfolio had deteriorated
significantly with the majority of the deterioration pertaining to ADC loans. Further deterioration
occurred in 2009. The associated provisions and losses depleted Evergreen’s earnings, eroded its capital,
and strained its liquidity. The DFI closed Evergreen on January 22, 2010 because the institution was
unable to raise sufficient capital to support its operations.

The FDIC’s Supervision of Evergreen

The FDIC, in coordination with the DFI, provided ongoing supervisory oversight of Evergreen through
regular onsite risk management examinations, an interim offsite review, and offsite monitoring activities.
Through these efforts, the FDIC identified risks in Evergreen’s operations and brought these risks to the
attention of the institution’s Board and management through examination reports, correspondence, and
supervisory actions. Such risks included the institution’s significant concentrations in CRE and ADC
loans, weak lending practices, and heavy reliance on wholesale funding sources. In addition, the FDIC
identified instances in which Evergreen’s Consolidated Reports of Condition and Income (Call Reports)
were inaccurate and directed the institution to file amendments to correct the identified errors. During the
review, we identified a previously unidentified error in the amount of brokered deposits reported in the
institution’s December 31, 2007 Call Report, which resulted in an erroneous net non-core funding
dependence ratio in the Uniform Bank Performance Report.

At the time of the April 2007 examination, economic conditions in Evergreen’s lending markets were
generally favorable and the institution’s financial condition was satisfactory. In addition, examiners
noted that the institution’s lending practices were generally sound. Nevertheless, examiners recognized
that risk within the institution’s loan portfolio was increasing and lowered the component rating for Asset
Quality from a “1” (assigned at the prior examination) to a “2”. Examiners also made recommendations
in certain areas to improve the institution’s risk management practices. Examiners concluded that the



                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                       In-Depth Review of the Failure of
                                       EvergreenBank, Seattle, Washington
                                                                                         Report No. IDR-10-001
                                                                                                  August 2010

overall financial and operational condition of the institution was satisfactory and assigned a composite
rating of “2”. Such an approach was consistent with the FDIC’s supervisory practices under such
circumstances.

In retrospect, a more proactive supervisory approach during and after the April 2007 examination may
have been prudent given the institution’s growing risk profile. Such an approach could have included
obtaining a commitment on the part of Evergreen for more affirmative actions, such as stronger
concentration and liquidity risk management controls and higher capital levels. Increased monitoring of
Evergreen following the April 2007 examination may also have been beneficial. Examiners became
sharply critical of Evergreen’s risk management practices during the August 2008 examination and issued
a Supervisory Directive in December 2008. However, by that time, the institution’s lending markets were
rapidly deteriorating, making remedial efforts difficult. A more proactive approach may have been more
effective in influencing Evergreen to curb its CRE and ADC lending and strengthen its risk management
controls before its lending markets deteriorated, potentially reducing the institution’s losses.

The FDIC has taken a number of steps to enhance its supervision program based on the lessons learned
from financial institution failures during the financial crisis. With respect to the issues discussed in this
report, the FDIC has, among other things, recently provided training to its examination workforce
wherein the importance of assessing an institution’s risk management practices on a forward-looking
basis was emphasized.

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of mandatory and
discretionary supervisory actions pertaining to all institutions. The section requires regulators to take
progressively more severe actions, known as “prompt corrective actions,” as an institution’s capital level
deteriorates. The purpose of section 38 is to resolve problems of insured depository institutions at the
least possible long-term cost to the DIF. Based on the supervisory actions taken with respect to
Evergreen, the FDIC properly implemented applicable PCA provisions of section 38.


Management Response

On August 16, 2010, the FDIC’s Division of Supervision and Consumer Protection (DSC) provided a
written response to a draft of this report. In its response, DSC reiterated the OIG’s conclusions regarding
the causes of Evergreen’s failure and cited several supervisory activities, discussed in the report, that were
undertaken to address risks at the institution prior to its failure. With regard to our assessment of the
FDIC’s supervision, DSC stated that strong supervisory attention is necessary for institutions with high
CRE and ADC concentrations and volatile funding sources, such as Evergreen. In addition, DSC stated
that updated guidance has been issued reminding examiners to take appropriate action when such risks are
imprudently managed.




                                   To view the full report, go to www.fdicig.gov
                                 Contents
                                                                    Page

Background                                                            2

Causes of Failure and Loss                                            3
  Rapid Growth and CRE and ADC Loan Concentrations                    4
  Oversight of the Lending Function                                   5
  Reliance on Wholesale Funding Sources                               7
  Declining Capital Levels                                            9

The FDIC’s Supervision of Evergreen                                  11
   Supervisory History                                               12
   Supervisory Response to Key Risks                                 13
   Prompt Corrective Action                                          15

Corporation Comments                                                 17

Appendices
  1. Objectives, Scope, and Methodology                              18
  2. Glossary of Terms                                               21
  3. Acronyms                                                        25
  4. Corporation Comments                                            26

Tables
   1. Selected Financial Information for Evergreen                    3
   2. Onsite Examinations and Offsite Review of Evergreen            12
   3. Evergreen’s Capital Levels                                     16

Figures
   1. Evergreen’s Loan Portfolio Composition and Growth               4
   2. Evergreen’s Net Non-Core Funding Dependence Ratio               9
      Compared to Peer Group
   3. Trend in Evergreen’s Tier 1 Capital Relative to CRE and ADC    10
      Loan Growth
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                                   Office of Inspector General



DATE:                                     August 24, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  In-Depth Review of the Failure of EvergreenBank, Seattle,
                                          Washington (Report No. IDR-10-001)


The Washington State Department of Financial Institutions (DFI) closed EvergreenBank
(Evergreen) on January 22, 2010, and named the FDIC as receiver. On March 1, 2010, the
FDIC notified the Office of Inspector General (OIG) that Evergreen’s total assets at
closing were $404.4 million and that the estimated loss to the Deposit Insurance Fund
(DIF) was $60.7 million. As of June 30, 2010, the estimated loss to the DIF had decreased
to $52.5 million.

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and
Consumer Protection Act (Financial Reform Act). The Financial Reform Act amends
section 38(k) of the Federal Deposit Insurance Act (FDI Act) by increasing the material
loss review (MLR) threshold from $25 million to $200 million for losses that occur for the
period January 1, 2010 through December 31, 2011. At the time the Financial Reform Act
was enacted, we had issued a draft report to FDIC management. As a result, although the
estimated loss for Evergreen no longer meets the threshold requiring an MLR, we decided
to complete the audit and issue this report.

Consistent with the Financial Reform Act and FDI Act provisions described above, the
objectives of this review were to (1) determine the causes of Evergreen’s failure and the
resulting loss to the DIF and (2) evaluate the FDIC’s supervision of Evergreen, including
the FDIC’s implementation of the PCA provisions of section 38 of the FDI Act. This
report presents our analysis of Evergreen’s failure and the FDIC’s efforts to ensure that
the Board of Directors (Board) and management operated the institution in a safe and
sound manner. The report does not contain formal recommendations. Instead, as major
causes, trends, and common characteristics of institution failures are identified in our
material loss and in-depth reviews, we will communicate those to FDIC management for
its consideration. As resources allow, we may also conduct more comprehensive reviews
of specific aspects of the FDIC’s supervision program and make recommendations as
warranted.1

1
 A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of the report.
Appendix 1 contains details on our objectives, scope, and methodology. We also include
several other appendices to this report. Appendix 2 contains a glossary of terms, including
material loss, the FDIC’s supervision program, and the Uniform Financial Institutions
Rating System (otherwise known as CAMELS ratings). Appendix 3 contains a list of
acronyms. Appendix 4 contains the Corporation’s comments on the report.


Background
Evergreen was established as a state nonmember institution in 1971 as Teachers State
Bank. During the late 1970s, the institution’s business focused primarily on processing
share drafts (the equivalent of checks) for credit unions. However, to reflect the
institution’s growing interest in consumer and commercial markets, and to address a
public perception that the institution’s products and services were limited to teachers, the
institution changed its name in 1980 to EvergreenBank. By 2000, narrowing profit
margins and competition in the check processing business prompted Evergreen to
withdraw from that business and begin focusing on consumer and commercial lending.
During 2005, Evergreen began placing considerable emphasis on commercial real estate
(CRE) and acquisition, development, and construction (ADC) lending in the Seattle
metropolitan area. The institution’s ADC lending generally pertained to single-family
home construction, condominium conversions, and commercial construction projects.

In addition to a main office in Seattle, Evergreen maintained seven branches throughout
the Seattle metropolitan area. The institution had no affiliates for purposes of section 23A
of the Federal Reserve Act, made applicable to insured nonmember institutions by section
18(j) of the FDI Act. Evergreen was wholly-owned by EvergreenBancorp, Inc. (Bancorp),
a publicly-traded, one-bank holding company. As of September 2009, the institution’s
directors owned or controlled just over 4 percent of the holding company’s stock. No
shareholder owned more than 6 percent of Bancorp’s stock, and the shares were widely
held. Table 1 summarizes selected financial information for Evergreen for the calendar
years ended 2005 through 2009.




                                              2
Table 1: Selected Financial Information for Evergreen
 Financial Measure                   Dec-09        Dec-08        Dec-07         Dec-06       Dec-05
 Total Assets ($000s)                395,980       460,882       420,022        342,931      248,733
 Gross Loans and Leases ($000s)      370,455       422,671       375,428        292,449      189,188
 Deposits ($000s)                    340,378       358,921       309,804        257,098      200,175
 Net Non-Core Funding                46.86%        57.22%        26.58%*        42.78%       26.11%
 Dependence Ratio
 Past Due and Noncurrent             19.59%         5.67%         0.22%         0.17%         0.61%
 Loans/Gross Loans
 Loan Growth                        (16.00%)       11.02%         28.17%        54.79%       18.61%
 Net Income (Loss) ($000s)            (25,506)      (3,438)         2,114          2,521        1,521
Source: Uniform Bank Performance Reports (UBPR) and Consolidated Reports of Condition and Income
(Call Reports) for Evergreen.
*As discussed more fully on page 9 of the report, we determined that the net non-core funding dependence
ratio of 26.58 percent reported on Evergreen’s December 31, 2007 UBPR was incorrect. The correct net
non-core funding dependence ratio was 49.21 percent.



Causes of Failure and Loss
Evergreen failed primarily because its Board and management did not effectively manage
the risks associated with the institution’s rapid growth and heavy concentrations in CRE
and ADC loans. Lax oversight of the lending function also contributed to the asset quality
problems that developed when economic conditions in the institution’s lending markets
deteriorated. Specifically, the institution exhibited weak loan underwriting, credit
administration, and related monitoring practices. Evergreen also experienced high staff
turnover in the lending function during a critical period for the institution. Further,
Evergreen relied heavily upon wholesale funding sources, primarily brokered deposits and
Federal Home Loan Bank (FHLB) borrowings, to support its lending activities and to
maintain adequate liquidity. These funding sources became restricted when Evergreen’s
credit risk profile deteriorated in early 2009, placing a severe strain on the institution’s
liquidity position.

Evergreen’s heavy concentration in CRE and ADC loans, coupled with weak risk
management practices, made the institution vulnerable to a sustained downturn in the
Seattle real estate market. Adding to this vulnerability was a general decline in the
institution’s capital levels between 2004 and 2008 while risk in the loan portfolio was
increasing. Evergreen’s declining capital reduced the institution’s ability to absorb losses
due to unforeseen circumstances. During the summer of 2008, the credit quality of
Evergreen’s loan portfolio began to decline. By year-end 2008, the quality of the loan
portfolio had deteriorated significantly, with the majority of the deterioration pertaining to
ADC loans. Further deterioration occurred in 2009. The associated provisions and losses
depleted Evergreen’s earnings, eroded its capital, and strained its liquidity. The DFI
closed Evergreen on January 22, 2010 because the institution was unable to raise
sufficient capital to support its operations.




                                                    3
Rapid Growth and CRE and ADC Loan Concentrations

In 2005, Evergreen embarked on a rapid growth strategy centered in CRE and ADC
lending in response to a strong real estate market. However, Evergreen’s Board and
management did not effectively manage the risks associated with the institution’s rapid
growth and ensuing heavy concentrations in CRE and ADC loans.

Rapid Growth

Figure 1 illustrates the general composition and growth of Evergreen’s loan portfolio in
the years preceding the institution’s failure. The institution’s loan portfolio grew
123 percent during the 3-year period ended December 31, 2008, which was well in excess
of the institution’s peer group average. Contributing to this growth was an increase in
total CRE loans, including ADC loans, from $100 million as of December 31, 2005 to
$293 million as of December 31, 2008. During this same period, ADC loans grew from
$7 million (or almost 4 percent of the loan portfolio) to $97 million (or 23 percent of the
loan portfolio). Much of Evergreen’s ADC lending consisted of speculative condominium
and townhome construction and land development projects in the Seattle metropolitan
area. Further, Evergreen had certain loans and lines of credit with various real estate
developers that, although not classified as ADC, were used to provide capital for real
estate construction and development projects.

Figure 1: Evergreen’s Loan Portfolio Composition and Growth

                                                         All Other Loans                           $423
                                       $450
                                                         Other CRE Loans
                                                                                   $376                             $370
                                       $400              ADC Loans
   Gross Loans and Leases (Millions)




                                                                                             $130
                                       $350                         $293
                                                                                                              $97
                                                                               $135
                                       $300

                                       $250             $190
                                                                  $120

                                       $200                                                  $196
                                                                               $151                          $195
                                       $150       $90

                                                                  $138
                                       $100
                                                  $93                          $90           $97
                                       $50                                                                   $78
                                                                  $35
                                                  $7
                                        $0
                                              Dec-05           Dec-06       Dec-07        Dec-08          Dec-09
                                                                         Period Ended


Source: OIG analysis of Call Reports for Evergreen.

Evergreen continued to grow its CRE and ADC loans during 2007 and 2008 while trends
in national home sales and prices were negative. Evergreen’s 2008 Strategic Plan stated
that although the national economy had taken “a dramatic turn for the worse” beginning in

                                                                               4
mid-2007, the institution’s local lending markets remained strong. The plan projected
asset growth of approximately 50 percent between 2008 and 2010. While the economy in
the Pacific Northwest has historically lagged the general economy in terms of entering and
exiting downturns, the institution’s decision to continue growing its CRE and ADC loans
in such an environment was risky.

CRE and ADC Loan Concentrations

In December 2006, the FDIC, the Office of the Comptroller of the Currency, and the
Board of Governors of the Federal Reserve System issued guidance, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance). Although the Joint Guidance does not establish specific CRE lending
limits, it does define criteria that the agencies use to identify institutions potentially
exposed to significant CRE concentration risk. According to the Joint Guidance, an
institution that has experienced rapid growth in CRE lending, has notable exposure to a
specific type of CRE, or is approaching or exceeds the following supervisory criteria may
be identified for further supervisory analysis of the level and nature of its CRE
concentration risk:

      Total CRE loans representing 300 percent or more of total capital where the
       outstanding balance of the institution’s CRE loan portfolio has increased by
       50 percent or more during the prior 36 months; or

      Total loans for construction, land development, and other land (referred to in this
       report as ADC) representing 100 percent or more of total capital.

As of December 31, 2007, Evergreen’s non-owner occupied CRE loans represented
457 percent of the institution’s total capital. Further, the institution’s ADC loan
concentration at year-end 2007 represented 219 percent of total capital. Both of these
figures exceeded Evergreen’s peer group average and the levels defined in the Joint
Guidance as possibly warranting further supervisory analysis. Although Evergreen had
implemented certain controls for managing its CRE and ADC loan concentrations, its
concentration risk management practices were not adequate. For example, as discussed
more fully in the next section of this report, the institution had not established and
implemented reasonable limits on its CRE and ADC loan concentrations. In addition, the
institution had not stress tested its CRE and ADC loan portfolios to assess the impact that
various economic scenarios might have on the institution’s asset quality, capital, earnings,
and liquidity.

Oversight of the Lending Function

A lack of effective Board and management oversight of the lending function contributed
to the asset quality problems that developed when economic conditions in Evergreen’s
lending markets deteriorated. Specifically, examiners noted weak loan underwriting,
credit administration, and related monitoring practices, particularly during the
August 2008 and June 2009 examinations. In addition, a high turnover of staff in the


                                             5
lending function during 2007 and 2008 made effective loan administration difficult. A
brief description of these weaknesses follows.

Loan Underwriting

      Loan Renewals. The April 2007 and August 2008 examination reports identified
       instances in which the institution renewed loans without sufficient or current
       financial information. In addition, the June 2009 examination report noted that a
       number of loans listed on Evergreen’s internal watch list were renewed during
       2008 without obtaining current financial information on the borrowers.

      Appraisals. The August 2008 examination report identified several deficiencies
       related to appraisals. Specifically, Evergreen did not obtain or adequately review
       current appraisals for some loans, resulting in apparent violations of Part 323,
       Appraisals, of the FDIC Rules and Regulations. In addition, appraisal reviews for
       large/complex properties were performed by loan officers or loan administration
       personnel rather than by individuals independent of the lending function. Further,
       Evergreen’s loan policy did not address appraisal requirements for loan
       participations purchased from other institutions. Moreover, originating institutions
       did not always order or review appraisals in a timely manner. The June 2009
       examination report also identified apparent violations of Part 323.

      Global Cash Flow Analyses. The June 2009 examination report noted that the
       institution failed to perform adequate global cash flow analyses when loans were
       originated or renewed. Specifically, loan officers did not routinely consider the
       total debt service requirements of borrowers or the progress of the borrowers’
       other real estate projects funded by other institutions. Such analyses can provide
       early indications of problems.

Credit Administration and Related Monitoring

      Stress Testing. The August 2008 and June 2009 examination reports noted that
       Evergreen had not performed a comprehensive stress test of the loan portfolio.
       Examiners cited this weakness as a contravention of Appendix A to Part 365—
       Interagency Guidelines for Real Estate Lending Policies, of the FDIC Rules and
       Regulations, in the June 2009 examination.

      Recognizing Problem Loans. The June 2009 examination report noted that
       Evergreen did not recognize problem loans in a timely manner when the
       institution’s real estate lending markets deteriorated in 2008. Generally, loan
       downgrades occurred at the time of renewal, during the annual external review,
       when they became past due, or when borrowers experienced problems. Untimely
       action in this regard may have resulted in missed opportunities to work with
       troubled borrowers to shore up loans with additional collateral. Not recognizing
       problem loans in a timely manner also contributed to an underfunded Allowance


                                            6
       for Loan and Lease Losses (ALLL) and weak ALLL methodology during 2008
       and 2009.

      Reporting Problem Loans. The June 2009 examination report identified
       untimely reporting of problem loans to Evergreen’s Board. Prior to late 2008,
       problem loans were reported to the Board on a quarterly basis, with the reports due
       30 days after the quarter’s end. By the time the Board received these reports,
       problem loans had often already deteriorated significantly.

      Reporting Concentrations. The June 2009 examination report noted that
       Evergreen ceased preparing detailed concentration monitoring reports when it
       discontinued CRE and ADC lending in 2009. Examiners cited the lack of
       reporting as an apparent violation of Appendix A to Part 365.

Evergreen’s 2008 annual financial statement audit identified material weaknesses in
internal control over financial reporting. Such weaknesses generally pertained to the
timely identification and evaluation of problem credits, internal audit and external loan
reviews for monitoring problem credits and impaired loans, calculations for loan losses,
and reporting to the Board.

Staff Turnover

Eight of Evergreen’s loan officers, including the Chief Lending Officer (CLO), left the
institution during 2007 and 2008. Further, a new CLO and 10 new loan officers were
hired during this timeframe. This was a critical period for the institution as many of its
CRE and ADC loans were relatively new and unseasoned, and the real estate market was
beginning to decline. Examiners noted during the June 2009 examination that there
appeared to be little direction provided to the lending staff during this period and that the
redistribution of loans from one officer to another resulted in officers not being familiar
with their borrowers, making the timely recognition of problems difficult.

Reliance on Wholesale Funding Sources

In the years preceding its failure, Evergreen became increasingly reliant on wholesale
funding sources, particularly brokered deposits and FHLB borrowings, to fund its rapid
loan growth and maintain adequate liquidity. Evergreen began acquiring brokered
deposits in 2006, and by year-end 2008, $130.7 million of the institution’s $358.9 million
in total deposits (or 36 percent) consisted of brokered deposits. In addition, Evergreen
increased its FHLB borrowings from $22.7 million at year-end 2005 to $64.8 million at
year-end 2008. While Evergreen’s wholesale funding increased, its on-balance sheet
liquidity (e.g., marketable securities) decreased as management redeployed these resources
to higher-yielding assets, such as ADC loans. Evergreen’s management determined that
as long as adequate borrowing capacity was available, the reduction in on-balance sheet
liquidity was of minor concern. Further, examiners noted in the August 2008 examination
that the institution had been operating outside of its policy parameters with respect to
borrowings from the FHLB and correspondent banks between December 2007 and
July 2008.
                                              7
In its December 31, 2008 Call Report, Evergreen reported an Adequately Capitalized
position for PCA purposes. As a result, the institution was prohibited from accepting,
renewing, or rolling over brokered deposits without a waiver from the FDIC. The
institution never applied for a brokered deposit waiver because it determined that it was
highly unlikely that a waiver would be approved. The institution’s inability to accept,
renew, or roll over brokered deposits severely strained its liquidity position. In fact,
Evergreen’s 2008 Annual Report on Form 10-K filed with the Securities and Exchange
Commission noted that the institution’s tenuous liquidity position raised substantial doubt
about its ability to continue as a going concern. Further elevating the institution’s
liquidity risk profile prior to the August 2008 examination was the lack of a contingency
liquidity plan that addressed alternative funding sources.

Evergreen made a concerted effort during 2009 to replace its maturing brokered deposits
with Internet deposits and core deposits. By September 30, 2009, Evergreen had reduced
its brokered deposits to about $68.2 million, or 16 percent of its $438.9 million in total
deposits, and increased its Internet deposits to $123.3 million. On November 4, 2009, the
FDIC issued a PCA Directive that, among other things, prohibited Evergreen from
accepting, renewing, or rolling over deposits from correspondent depository institutions.
Since Internet deposits often originate from correspondent institutions, Evergreen’s ability
to renew its Internet deposits was severely limited, placing additional strain on the
institution’s liquidity.

Figure 2 illustrates the trend in Evergreen’s net non-core funding dependence ratio for the
years ended 2004 through 2009. As reflected in the figure, the ratio was substantially
higher than Evergreen’s peer group average throughout this period.




                                             8
Figure 2: Evergreen’s Net Non-Core Funding Dependence Ratio Compared
          to Peer Group
  Net Non-Core Funding Dependence Ratio
                                          70%
                                                                                                     57%
                                          60%
                                                                                         49%                       47%
                                          50%
                                                                          43%
                                          40%
                                                                                          27%
                                          30%             26%
                                                    20%                                              30%              25%
                                                                               24%         26%
                                          20%
                                                 15%
                                                              16%
                                          10%

                                          0%
                                                     4




                                                               5




                                                                           6




                                                                                           7




                                                                                                      8




                                                                                                                  9
                                                  -0




                                                            -0




                                                                        -0




                                                                                        -0




                                                                                                   -0




                                                                                                               -0
                                                ec




                                                          ec




                                                                      ec




                                                                                      ec




                                                                                                 ec




                                                                                                             ec
                                                D




                                                          D




                                                                     D




                                                                                     D




                                                                                                 D




                                                                                                            D
                                                                               Period Ended

                                                          Peer Group Average         Evergreen   Corrected Value

Source: UBPR data for Evergreen.
* Evergreen’s net non-core funding dependence ratio was incorrectly reported as 26.58 percent on the
December 31, 2007 UBPR. The error was caused by Evergreen’s failure to include $85.5 million in brokered
deposits on Line M.2.c, Total Time Deposits of $100,000 or More, of Schedule RC-E, Deposit Liabilities of its
December 31, 2007 Call Report. After including the brokered deposits, we determined that the correct figure
was 49.21 percent.

Declining Capital Levels

While risk in Evergreen’s loan portfolio increased between 2004 and 2008, capital levels
generally decreased, limiting the institution’s ability to absorb losses due to unforeseen
circumstances and contributing to the losses incurred by the DIF when the institution
failed. Figure 3 illustrates the trend in Evergreen’s Tier 1 Capital relative to CRE and
ADC loans.




                                                                                9
Figure 3: Trend in Evergreen’s Tier 1 Capital Relative to CRE and ADC Loan
          Growth

                           350                                                                            15
  Total Loans (Millions)

                           300                                                                            13




                                                                                                               Tier 1 Capital Ratio
                           250                                                                            11




                                                                                                                  (Percentage)
                           200                                                                            9
                           150                                                                            7
                           100                                                                            5
                           50                                                                             3
                            0                                                                             1
                                      04




                                                     05




                                                                  06




                                                                             07




                                                                                       08




                                                                                                     09
                                    c-




                                                   c-




                                                                c-




                                                                           c-




                                                                                     c-




                                                                                                   c-
                                 De




                                                De




                                                             De




                                                                        De




                                                                                  De




                                                                                                De
                                                                 Year Ended

                                           Total CRE Loans      Total ADC Loans   Tier 1 Capital Ratio

Source: UBPRs and Call Reports for Evergreen.

The FDIC’s Risk Management Manual of Examination Policies states that institutions
should maintain capital commensurate with the level and nature of risk to which the
institutions are exposed. In addition, the amount of capital necessary for safety and
soundness purposes may differ significantly from the amount needed to maintain a Well
Capitalized or Adequately Capitalized position for PCA purposes. Although Evergreen
was considered Well Capitalized for PCA purposes until year-end 2008, the institution’s
capital was not commensurate with its risk profile in the years leading to its failure. In
addition, Evergreen did not have a formal capital plan that addressed unexpected adverse
events.

At the time of the August 2008 examination, Evergreen’s adversely classified assets were
$32.3 million (or 70 percent of Tier 1 Capital plus the ALLL). By the June 2009
examination, adversely classified assets had increased to $101.6 million (or 235.5 percent
of Tier 1 Capital plus the ALLL). Over $93 million of this amount consisted of loans,
more than half of which pertained to ADC. In its final Call Report for the quarter ended
December 31, 2009, Evergreen reported that nearly 20 percent of its total loan portfolio
was in non-accrual status. Notably, almost 69 percent of Evergreen’s $78.1 million in
construction and land development loans were in non-accrual status. After recognizing a
net loss of $25.5 million for calendar year 2009, Evergreen fell to a Critically
Undercapitalized position. Evergreen was closed by the DFI on January 22, 2010 as it
was unable to raise sufficient capital to support its operations.




                                                                       10
The FDIC’s Supervision of Evergreen
The FDIC, in coordination with the DFI, provided ongoing supervisory oversight of
Evergreen through regular onsite risk management examinations, an interim offsite
review, and offsite monitoring activities. Through these efforts, the FDIC identified risks
in Evergreen’s operations and brought these risks to the attention of the institution’s Board
and management through examination reports, correspondence, and supervisory actions.
Such risks included the institution’s significant concentrations in CRE and ADC loans,
weak lending practices, and heavy reliance on wholesale funding sources. In addition, the
FDIC identified instances in which Evergreen’s Call Reports were inaccurate and directed
the institution to file amendments to correct the identified errors. As noted earlier, we
identified a previously unidentified error in the amount of brokered deposits reported in
the institution’s December 31, 2007 Call Report, which resulted in an erroneous net non-
core funding dependence ratio in the UBPR.

At the time of the April 2007 examination, economic conditions in Evergreen’s lending
markets were generally favorable and the institution’s financial condition was satisfactory.
In addition, examiners noted that the institution’s lending practices were generally sound.
Nevertheless, examiners recognized that risk within the institution’s loan portfolio was
increasing and lowered the component rating for Asset Quality from a “1” (assigned at the
prior examination) to a “2”. Examiners also made recommendations in certain areas to
improve the institution’s risk management practices. Examiners concluded that the
overall financial and operational condition of the institution was satisfactory and assigned
a composite rating of “2”. Such an approach was consistent with the FDIC’s supervisory
practices under such circumstances.

In retrospect, a more proactive supervisory approach during and after the April 2007
examination may have been prudent given the institution’s growing risk profile. Such an
approach could have included obtaining a commitment on the part of Evergreen for more
affirmative actions, such as stronger concentration and liquidity risk management controls
and higher capital levels. Increased monitoring of Evergreen following the April 2007
examination may also have been beneficial. Examiners became sharply critical of
Evergreen’s risk management practices during the August 2008 examination and issued a
Supervisory Directive in December 2008. However, by that time, the institution’s lending
markets were rapidly deteriorating, making remedial efforts difficult. A more proactive
approach may have been more effective in influencing Evergreen to curb its CRE and
ADC lending and strengthen its risk management controls before its lending markets
deteriorated, potentially reducing the institution’s losses.

The FDIC has taken a number of steps to enhance its supervision program based on the
lessons learned from financial institution failures during the financial crisis. With respect
to the issues discussed in this report, the FDIC has, among other things, recently provided
training to its examination workforce wherein the importance of assessing an institution's
risk management practices on a forward-looking basis was emphasized.




                                             11
Supervisory History

The FDIC and the DFI conducted four onsite risk management examinations of Evergreen
between December 2005 and the institution’s failure. The FDIC also performed one
interim offsite review of the institution that resulted in a ratings downgrade prior to the
June 2009 examination. Table 2 summarizes key supervisory information pertaining to
the examinations and the referenced review.

Table 2: Onsite Examinations and Offsite Review of Evergreen
                      Examination                            Supervisory
                       or Review                                                Informal or Formal Action
        Date                              Regulators           Ratings
                                                                                         Taken*
                                                               (UFIRS)
     06/29/09          Examination         FDIC/DFI            555553/5                 C&D Effective
                                                                                       October 23, 2009
     03/27/09         Offsite Review          FDIC             434442/4               Interim Downgrade
     08/25/08          Examination             DFI             333332/3            DFI Supervisory Directive
                                                                                          Effective
                                                                                     December 22, 2008
     04/02/07          Examination            FDIC             222222/2                     None
     12/27/05          Examination             DFI             212222/2                       None
Source: OIG analysis of examination reports and information in the FDIC’s Virtual Supervisory Information on
the Net system for Evergreen.
* Informal corrective actions often take the form of Bank Board Resolutions, Memoranda of Understanding, or
Supervisory Directives. Formal corrective actions often take the form of Cease and Desist orders (C&D), and
under severe circumstances can include insurance termination proceedings.

The FDIC’s offsite monitoring procedures generally consisted of contacting the
institution’s management from time to time to discuss current and emerging business
issues and using automated tools2 to help identify potential supervisory concerns. The
FDIC’s offsite monitoring procedures did not identify serious concerns with the institution
prior to the August 2008 examination. Based on the results of the August 2008
examination, the FDIC and the DFI downgraded Evergreen’s composite rating to a “3”
and formally notified the Board in an October 22, 2008 letter that the institution was
considered to be in a troubled condition. In addition, the DFI, in coordination with the
FDIC, issued a Supervisory Directive requiring, among other things, that Evergreen:

        Reduce the level of its adversely classified and criticized assets.

        Address the credit administration weaknesses identified during the August 2008
         examination, including:

               o improving oversight of the lending function,

2
  The FDIC uses various offsite monitoring tools to help assess the financial condition of institutions. Two
such tools are the Statistical CAMELS Offsite Rating system and the Growth Monitoring System. Both
tools use statistical techniques and Call Report data to identify potential risks, such as institutions likely to
receive a supervisory downgrade at the next examination or institutions experiencing rapid growth and/or a
funding structure highly dependent on non-core funding sources.

                                                        12
           o improving the appraisal review process, and
           o taking steps to reduce and control concentration risk.

      Develop and submit a new strategic plan.

      Reduce the institution’s liquidity risk profile by improving its asset/liability
       management policy, determining whether its reliance on non-core funding sources
       was reasonable, and developing a plan to achieve a minimum primary liquidity
       level.

      Address and/or correct apparent violations of laws and regulations.

As part of its obligations under the Supervisory Directive, Evergreen provided the FDIC
and the DFI with quarterly progress reports addressing each of the provisions in the
directive.

In late October 2008, the FDIC began monitoring Evergreen’s liquidity position on a
weekly basis, and before the close of the year, the institution’s liquidity was being
monitored daily. On March 27, 2009, the FDIC conducted an offsite review of Evergreen
that identified significant deterioration in the institution’s overall financial condition.
Based on the results of the offsite review, the FDIC downgraded the institution’s
composite rating to a “4” and accelerated the next full-scope examination from
October 2009 to June 2009. The June 2009 examination identified continued deterioration
in Evergreen’s financial condition, and on October 23, 2009, the FDIC, in coordination
with the DFI, issued a C&D. Among other things, the C&D required that the institution
retain qualified management and ensure active Board participation in the affairs of the
institution; have and maintain a Tier 1 leverage capital ratio of 10 percent; significantly
increase its ALLL; develop, revise, and implement written lending and collection policies;
and provide quarterly progress reports to the FDIC and the DFI.

Evergreen’s Board and management were not successful in returning the institution to a
safe and sound condition. As a result, the DFI closed the institution on January 22, 2010.

Supervisory Response to Key Risks

At the time of the April 2007 examination, economic conditions in Evergreen’s lending
markets were generally favorable and the institution’s adversely classified assets were a
manageable $3.3 million, or 8.6 percent of Tier 1 Capital and the ALLL. In addition,
examiners noted that the institution’s larger loans were soundly underwritten and that loan
grading was accurate and timely. Nevertheless, examiners recognized that risk within the
institution’s loan portfolio was increasing and lowered the component rating for Asset
Quality from a “1” (assigned at the prior examination) to a “2”. Examiners also made
recommendations in certain areas to improve the institution’s risk management practices.
Based on the results of the examination, and management’s agreement to address the
identified weaknesses, examiners concluded that the overall financial and operational
condition of the institution was satisfactory and assigned a composite rating of “2”. Such

                                            13
an approach was consistent with the FDIC’s supervisory practices under such
circumstances.

Notwithstanding Evergreen’s satisfactory financial condition at the time of the April 2007
examination, the institution’s risk profile was increasing. Key risk factors included:

      Rapid Growth. Growth in the loan portfolio exceeded 56 percent in 2006 and the
       institution’s strategic plan and budget planned for continued growth in the coming
       years.

      Increasing ADC Loan Concentration. ADC loans totaled $35 million at year-
       end 2006, up from $7 million at the prior year-end, and further growth in this high-
       risk loan category was planned for the near future. The institution had also not
       performed a stress test of its loan portfolio to assess the impact that various
       economic scenarios might have on the institution’s financial condition.

      Reliance on Wholesale Funding. Prior to 2006, Evergreen had no brokered
       deposits. During 2006, the institution began using brokered deposits to fund its
       CRE and ADC loan growth. At year-end 2006, Evergreen had $52.8 million in
       brokered deposits with plans for further wholesale funding growth. FHLB
       borrowings also increased from $22.7 million at year-end 2005 to $46.8 million at
       year-end 2006.

Examiners identified Evergreen’s rapid loan growth during the April 2007 examination,
but determined that the institution’s performance goals were reasonable and achievable.
While examiners also identified Evergreen’s growing concentrations in CRE and ADC
loans in the examination report, they stated that the institution’s concentration monitoring
practices were adequate. Further, examiners expressed some concern regarding the
institution’s declining liquidity position, but noted that secondary sources of liquidity
(e.g., FHLB borrowings, correspondent lines of credit, brokered deposits, and public funds
capacity) were adequate and that appropriate liquidity parameters were in place. As
previously stated, the economy in the Pacific Northwest has historically lagged the general
economy in terms of entering and exiting economic downturns. In hindsight, a more
proactive supervisory approach during the April 2007 examination may have been
prudent. Such an approach could have included obtaining a commitment from Evergreen
for more affirmative actions, such as:

      Stronger concentration risk management controls, such as stress testing of the loan
       portfolio to assess the impact that various economic scenarios might have on asset
       quality, earnings, capital, and liquidity.

      Stronger liquidity risk management controls, such as a formal contingency
       liquidity plan and internal limits on the amount of brokered deposits that the
       institution could acquire.



                                             14
       Higher capital levels to reflect the growing risks associated with the institution’s
        loan portfolio and liquidity management practices.

In its May 3, 2007 letter transmitting the April 2007 examination report to Evergreen’s
Board, the FDIC and the DFI requested a written response to the examination findings.3
While such a step was prudent, the FDIC could have increased its monitoring of the
institution following the 2007 examination. For example, the FDIC could have conducted
a visitation to assess the institution’s management of key risks, particularly its growing
CRE and ADC loan concentrations and increasing reliance on wholesale funding sources.
Examiners noted in the April 2007 examination report that some seasoning of the
institution’s rapidly growing loan portfolio was needed before a positive assessment of
quality could be confirmed. A visitation could have provided an opportunity for such an
assessment. Had the FDIC conducted a visitation, it may have identified and raised
greater concerns about the institution’s growing ADC loan concentration and reliance on
wholesale funding sources sooner than it did. Based on the results of the visitation, the
FDIC may have decided to take stronger supervisory action, if appropriate.

A more proactive supervisory approach during and shortly after the April 2007
examination may have been more effective in influencing Evergreen to curb its CRE and
ADC lending, increase its capital, and/or strengthen its risk management controls before
its lending markets deteriorated, potentially reducing the institution’s losses.

Examiners became more critical of Evergreen’s risk management practices during the
August 2008 examination. Specifically, examiners downgraded the institution’s
composite rating to a “3”, recommended that Evergreen perform loan portfolio stress
testing and develop a contingency liquidity plan, and issued a Supervisory Directive to
address the institution’s key risks. Examiners also noted that although the institution was
considered Well Capitalized for PCA purposes, its capital position was not commensurate
with its risk profile. At the time of the August 2008 examination, however, the
institution’s risk profile had increased substantially and the Seattle real estate market was
declining, making Evergreen’s remedial actions difficult to effectively implement.
Evergreen’s financial condition continued to deteriorate in 2009, and the institution’s
management was not successful in returning Evergreen to a safe and sound condition.

Prompt Corrective Action

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of
mandatory and discretionary supervisory actions pertaining to all institutions. The section
requires regulators to take progressively more severe actions, known as “prompt
corrective actions,” as an institution’s capital level deteriorates. The purpose of section 38
is to resolve problems of insured depository institutions at the least possible long-term cost
to the DIF. Part 325, Capital Maintenance, of the FDIC Rules and Regulations defines
the capital measures used in determining the supervisory actions that will be taken
pursuant to section 38 for FDIC-supervised institutions. Part 325 also establishes

3
 A copy of the response was not contained in the FDIC’s supervisory records for Evergreen. As a result, we
were unable to review and assess the response.

                                                   15
procedures for the submission and review of capital restoration plans and for the issuance
of directives and orders pursuant to section 38. The FDIC is required to closely monitor
the institution’s compliance with its capital restoration plan, mandatory restrictions
defined under section 38(e), and discretionary safeguards imposed by the FDIC (if any) to
determine if the purposes of PCA are being achieved.

Based on the supervisory actions taken with respect to Evergreen, the FDIC properly
implemented applicable PCA provisions of section 38. Among other things, the FDIC
issued timely notices related to the institution’s capital category; reviewed and monitored
the institution’s Call Reports and liquidity reports; and conducted periodic discussions
with the institution’s management regarding compliance with the restrictions imposed
under each PCA capital category. Table 3 illustrates Evergreen’s capital levels relative to
the PCA thresholds for Well Capitalized institutions.

Table 3: Evergreen’s Capital Levels
 Period        Tier 1 Leverage   Tier 1 Risk-     Total Risk-     PCA Capital Category
 Ended         Capital           Based Capital    Based Capital
 PCA           5% or more        6% or more       10% or more
 Threshold
 Dec-05        10.10%            11.36%           12.39%          Well Capitalized
 Dec-06        11.15%            12.01%           12.94%          Well Capitalized
 Dec-07        8.97%             9.88%            10.99%          Well Capitalized
 Dec-08        7.05%             7.69%            8.96%           Adequately Capitalized
 Jun-09        2.78%             3.64%            4.93%           Significantly
                                                                  Undercapitalized
 Sep-09        1.44%             2.07%            3.39%           Critically Undercapitalized
Source: UBPRs for Evergreen.

Evergreen was considered Well Capitalized for PCA purposes until December 31, 2008.
On February 23, 2009, Evergreen’s management notified the FDIC that the institution
intended to amend its Call Report for the quarter ended December 31, 2009 to reflect an
increase in the provision for loan loss. In a letter dated March 3, 2009, the FDIC notified
Evergreen that based on the increased provision, the institution would fall to Adequately
Capitalized as of December 31, 2008. The FDIC’s notification included a reminder
regarding the restrictions imposed on Adequately Capitalized institutions, including
restrictions on the use of brokered deposits without a waiver from the FDIC. Evergreen
filed its amended Call Report on March 13, 2009.

In a letter dated August 6, 2009, the FDIC notified Evergreen that the institution’s PCA
category had fallen to Significantly Undercapitalized. The lower PCA category was based
on the institution’s June 30, 2009 Call Report and the need for an additional provision to
the ALLL identified during the June 2009 examination. The notification directed the
institution to (1) submit a capital restoration plan by September 18, 2009 and (2) submit a
summary of the specific steps taken by management to comply with the mandatory
restrictions of section 38. Evergreen submitted a capital restoration plan on September 18,
2009. However, in a letter dated October 30, 2009, the FDIC advised the institution that
the plan was unacceptable. Among other things, the FDIC noted that the plan did not

                                             16
contain a realistic strategy for recapitalizing the institution and that the timeframes in the
plan exceeded the timeframes in the C&D for increasing capital. The FDIC requested that
Evergreen submit a new capital restoration plan not later than November 30, 2009.
However, the institution never submitted another capital restoration plan.

On September 2, 2009, the DFI provided Evergreen with a written Thirty Day Notice to
Correct Unsafe Condition of Bank. The notice stated that the institution was operating
with an unacceptable level of capital protection and that if the institution did not raise
sufficient capital within 30 days, the DFI may, at its option, take immediate possession
and control of the institution. On November 4, 2009, the FDIC issued a Supervisory
Prompt Corrective Action Directive against Evergreen. The PCA directive outlined the
mandatory restrictions imposed on the institution based on its capital category and
discretionary sanctions under section 38 for failing to submit an acceptable capital
restoration plan. On December 2, 2009, the FDIC notified Evergreen that, based on the
institution’s September 30, 2009 Call Report, which was amended on November 20, 2009,
the institution had fallen to Critically Undercapitalized. The notice included reminders
regarding the requirements imposed on Critically Undercapitalized institutions.

Evergreen explored a number of strategic alternatives to raise needed capital during 2008
and 2009. Such options included engaging financial advisors, selling assets, and
contacting private equity investors. However, no definitive agreements were ever reached.


Corporation Comments

We issued a draft of this report on July 16, 2010. The Division of Supervision and
Consumer Protection (DSC) management subsequently provided us with additional
information for our consideration. We made certain changes to the report that we deemed
appropriate based on the information that DSC management provided. On August 16,
2010, the Director, DSC, provided a written response to the draft report. The response is
presented in its entirety as Appendix 4 of the report.

In its response, DSC reiterated the OIG’s conclusions regarding the causes of Evergreen’s
failure and cited several supervisory activities, discussed in the report, that were
undertaken to address risks at the institution prior to its failure. With regard to our
assessment of the FDIC’s supervision, DSC stated that strong supervisory attention is
necessary for institutions with high CRE and ADC concentrations and volatile funding
sources, such as Evergreen. In addition, DSC stated that updated guidance has been
issued reminding examiners to take appropriate action when such risks are imprudently
managed.




                                              17
                                                                              Appendix 1

                     Objectives, Scope, and Methodology


Objectives

On July 21, 2010, the President signed into law the Financial Reform Act. The Financial
Reform Act amends section 38(k) of the FDI Act by increasing the MLR threshold from
$25 million to $200 million for losses that occur for the period January 1, 2010 through
December 31, 2011. Further, the Financial Reform Act calls for the OIG to perform in-
depth reviews of failures when the associated losses are not material but they involve
unusual circumstances. At the time the Financial Reform Act was enacted, we had issued
a draft of this report to management. As a result, although the estimated loss for
Evergreen no longer meets the threshold requiring an MLR, we decided to complete the
audit as an in-depth review and issue this report.

Consistent with the Financial Reform Act and FDI Act provisions described above, the
objectives of this review were to (1) determine the causes of Evergreen’s failure and the
resulting loss to the DIF and (2) evaluate the FDIC’s supervision of Evergreen, including
the FDIC’s implementation of the PCA provisions of section 38 of the FDI Act.

We conducted this performance audit from March 2010 to July 2010 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of Evergreen’s operations from December
2005 until its failure on January 22, 2010. Our review also entailed an evaluation of the
regulatory supervision of the institution over the same period.

To achieve the objectives, we performed the following audit procedures:

        Analyzed key documentation, including:

              Examination reports issued by the FDIC and the DFI between 2005 and
               2009.

              Institution data in Call Reports, UBPRs, and other reports.

              FDIC and DFI correspondence.

              Relevant reports prepared by DSC’s Washington Office relating to the
               institution’s failure.

                                              18
                                                                                 Appendix 1

                    Objectives, Scope, and Methodology


             Pertinent FDIC regulations, policies, procedures, and guidance.

       Interviewed DSC examination staff in the Washington Office, the San Francisco
        Regional Office, and the Seattle field office.

       Interviewed DFI examination staff to obtain their perspectives on the failure and to
        discuss their role in the supervision of the institution.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports,
examination reports, and interviews of examiners to understand Evergreen’s management
controls pertaining to the causes of failure and loss as discussed in the body of this report.

We obtained data from various FDIC systems, but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and testimonial
evidence to corroborate data obtained from systems that were used to support our audit
conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs Executive
Branch agencies to develop a customer-focused strategic plan, align agency programs and
activities with concrete missions and goals, and prepare and report on annual performance
plans. We did not assess the strengths and weaknesses of DSC’s annual performance plan
in meeting the requirements of the Results Act because such an assessment was not part of
the audit objectives. DSC’s compliance with the Results Act is reviewed in program
audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act and the FDIC Rules and Regulations. The
results of our tests are discussed, where appropriate, in the report. Additionally, we
assessed the risk of fraud and abuse related to our objectives in the course of evaluating
audit evidence.


Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that

                                              19
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
material loss review reports related to failures of FDIC-supervised institutions and these
reports can be found at http://www.fdicig.gov/index.html. In June 2010, the OIG initiated
an audit, the objectives of which are to (1) determine the actions that the FDIC has taken
to enhance its supervision program since May 2009, including those specifically in
response to the May 2009 memorandum, and (2) identify trends and issues that have
emerged from subsequent material loss reviews.

In addition, with respect to more comprehensive coverage of specific issues, in May 2010,
the OIG initiated an evaluation of the role and federal regulators’ use of the Prompt
Regulatory Action provisions of the FDI Act (section 38, PCA and section 39, Standards
for Safety and Soundness) in the banking crisis.




                                            20
                                                                                 Appendix 2

                              Glossary of Terms
Term             Definition
Adversely        Assets subject to criticism and/or comment in an examination report.
Classified       Adversely classified assets are allocated on the basis of risk (lowest to
Assets           highest) into three categories: Substandard, Doubtful, and Loss.

Affiliate        Under section 23A of the Federal Reserve Act (12 U.S.C. section 371c), an
                 affiliate generally includes, among other things, a bank subsidiary, or a
                 company that (1) controls the bank and any other company that is
                 controlled by the company that controls the bank, (2) is sponsored and
                 advised on a contractual basis by the bank, or (3) is controlled by or for the
                 benefit of shareholders who control the bank or in which a majority of
                 directors hold similar positions in the bank.
Allowance for    The ALLL is an estimate of uncollectible amounts that is used to reduce
Loan and Lease   the book value of loans and leases to the amount that is expected to be
Losses (ALLL)    collected. It is established in recognition that some loans in the
                 institution’s overall loan and lease portfolio will not be repaid. Boards are
                 responsible for ensuring that their institutions have controls in place to
                 consistently determine the allowance in accordance with the institutions’
                 stated policies and procedures, generally accepted accounting principles,
                 and supervisory guidance.
Annual Report    An annual report required by the Securities and Exchange Commission
on Form 10-K     that provides a comprehensive summary of a public company’s
                 performance. The report includes information such as company history,
                 organizational structure, executive compensation, equity, subsidiaries, and
                 audited financial statements, among other information.
Call Report      Reports of Condition and Income, often referred to as Call Reports,
                 include basic financial data for insured commercial banks in the form of a
                 balance sheet, an income statement, and supporting schedules. According
                 to the Federal Financial Institutions Examination Council’s (FFIEC)
                 instructions for preparing Call Reports, national banks, state member
                 banks, and insured nonmember banks are required to submit a Call Report
                 to the FFIEC’s Central Data Repository (an Internet-based system used for
                 data collection) as of the close of business on the last day of each calendar
                 quarter.
Cease and        A C&D is a formal enforcement action issued by a financial institution
Desist Order     regulator pursuant to 12 U.S.C. section 1818 to a bank or affiliated party to
(C&D)            stop an unsafe or unsound practice or a violation of laws and regulations.
                 A C&D may be terminated when the bank’s condition has significantly
                 improved and the action is no longer needed or the bank has materially
                 complied with its terms.
Concentration    A concentration is a significantly large volume of economically related
                 assets that an institution has advanced or committed to a certain industry,
                 person, entity, or affiliated group. These assets may, in the aggregate,
                 present a substantial risk to the safety and soundness of the institution.



                                            21
                                                                                 Appendix 2

                               Glossary of Terms
Term             Definition
Contingency      A written plan that defines strategies for addressing liquidity shortfalls in
Liquidity Plan   emergency situations. Such plans delineate policies to manage a range of
                 stress environments, establish clear lines of responsibility, and articulate
                 clear implementation and escalation procedures. Contingency liquidity
                 plans should be regularly tested and updated to ensure that they are
                 operationally sound. DSC uses the term contingency funding plan and
                 contingency liquidity plan interchangeably.
Criticized       Criticized assets include all assets rated special mention, substandard,
Assets           doubtful, and loss. The Board of Governors of the Federal Reserve
                 System, the FDIC, the Office of the Comptroller of the Currency, and the
                 Office of Thrift Supervision (the agencies) Uniform Loan Classification
                 Standards, along with the agencies’ examination manuals, define these risk
                 rating classifications.
FDIC’s           The FDIC’s supervision program promotes the safety and soundness of
Supervision      FDIC-supervised institutions, protects consumers’ rights, and promotes
Program          community investment initiatives by FDIC-supervised institutions. DSC
                 (1) performs examinations of FDIC-supervised institutions to assess their
                 overall financial condition, management policies and practices (including
                 internal control systems), and compliance with applicable laws and
                 regulations and (2) issues related guidance to institutions and examiners.
Federal Home     FHLBs provide long-and short-term advances (loans) to their members.
Loan Bank        Advances are primarily collateralized by residential mortgage loans, and
(FHLB)           government and agency securities.

Financial        A financial entity engaged in a broad range of banking-related activities.
Holding          These activities include: insurance underwriting, securities dealing and
Company          underwriting, financial and investment advisory services, merchant
                 banking, issuing or selling securitized interests in bank-eligible assets, and
                 generally engaging in any non-banking activity authorized by the Bank
                 Holding Company Act. The Federal Reserve Board is responsible for
                 supervising the financial condition and activities of financial holding
                 companies.
Global Cash      A global cash flow analysis is a comprehensive evaluation of borrower
Flow Analysis    capacity to perform on a loan. During underwriting, proper global cash
                 flow must thoroughly analyze projected cash flow and guarantor support.
                 Beyond the individual loan, global cash flow must consider all relevant
                 factors, including: guarantor’s related debt at other financial institutions,
                 future economic conditions, as well as obtaining current and complete
                 operating statements of all related entities. In addition, global cash flow
                 analysis should be routinely conducted as part of credit administration.
                 The extent and frequency of global cash flow analysis should be
                 commensurate to the amount of risk associated with a particular loan.




                                            22
                                                                                Appendix 2

                              Glossary of Terms
Term             Definition
Material Loss    As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the
                 Financial Reform Act, for the period beginning January 1, 2010 and
                 ending December 31, 2011, a material loss is defined as any estimated loss
                 in excess of $200 million.
Peer Group       Institutions are assigned to 1 of 15 peer groups based on asset size, number
                 of branches, and whether the institution is located in a metropolitan or
                 non-metropolitan area. Evergreen’s peer group included insured
                 commercial institutions with assets between $300 million and $1 billion.
Prompt           The purpose of PCA is to resolve the problems of insured depository
Corrective       institutions at the least possible long-term cost to the DIF. Part 325,
Action (PCA)     subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                 Regulations, section 325.101, et. seq., implements section 38, Prompt
                 Corrective Action, of the FDI Act, 12 United States Code section 1831(o),
                 by establishing a framework for determining capital adequacy and taking
                 supervisory actions against depository institutions that are in an unsafe or
                 unsound condition. The following terms are used to describe capital
                 adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                 (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                 Undercapitalized.

                 A PCA Directive is a formal enforcement action seeking corrective action
                 or compliance with the PCA statute with respect to an institution that falls
                 within any of the three categories of undercapitalized institutions.
Section 23A of   Section 23A: (1) establishes limits on the amount of ‘‘covered
the Federal      transactions’’ between a member bank and its affiliates (any one affiliate
Reserve Act      and in the aggregate as to all affiliates); (2) requires that all covered
                 transactions between a member bank and its affiliates be on terms and
                 conditions that are consistent with safe and sound banking practices; (3)
                 prohibits the purchase of low-quality assets from an affiliate; and (4)
                 requires that extensions of credit by a member bank to an affiliate, and
                 guarantees on behalf of affiliates, be secured by statutorily defined
                 amounts of collateral.




                                           23
                                                                               Appendix 2

                             Glossary of Terms

Term            Definition
Tier 1 (Core)   Defined in Part 325 of the FDIC Rules and Regulations, 12 C.F.R. section
Capital         325.2(v), as:
                The sum of:
                • Common stockholder’s equity (common stock and related surplus,
                undivided profits, disclosed capital reserves, foreign currency translation
                adjustments, less net unrealized losses on available-for-sale securities with
                readily determinable market values);
                • Non-cumulative perpetual preferred stock; and
                • Minority interest in consolidated subsidiaries;
                Minus:
                • Certain intangible assets;
                • Identified losses;
                • Investments in securities subsidiaries subject to section 337.4; and
                • Deferred tax assets in excess of the limit set forth in section 325.5(g).

Uniform Bank    The UBPR is an individual analysis of institution financial data and ratios
Performance     that includes extensive comparisons to peer group performance. The
Report (UBPR)   report is produced by the Federal Financial Institutions Examination
                Council for the use of banking supervisors, bankers, and the general public
                and is produced quarterly from Call Report data submitted by banks.
Uniform         Financial institution regulators and examiners use the Uniform Financial
Financial       Institutions Rating System (UFIRS) to evaluate a bank’s performance in
Institutions    six components represented by the CAMELS acronym: Capital adequacy,
Rating System   Asset quality, Management practices, Earnings performance, Liquidity
                position, and Sensitivity to market risk. Each component, and an overall
(UFIRS)
                composite score, is assigned a rating of 1 through 5, with 1 having the least
                regulatory concern and 5 having the greatest concern.




                                           24
                                                                      Appendix 3

                           Acronyms

ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to
         Market Risk
CLO      Chief Lending Officer
CRE      Commercial Real Estate
DFI      Washington State Department of Financial Institutions
DIF      Deposit Insurance Fund
FDI      Federal Deposit Insurance
FHLB     Federal Home Loan Bank

MLR      Material Loss Review
OIG      Office of Inspector General
PCA      Prompt Corrective Action
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                                  25
                                                                                     Appendix 4
                                     Corporation Comments



Federal Deposit Insurance Corporation
   550 17th Street NW, Washington, D.C. 20429-9990              Division of Supervision and Consumer Protection

                                                                        August 16, 2010
TO:               Stephen Beard
                  Assistant Inspector General for Material Loss Reviews

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          FDIC Response to the Draft Audit Report Entitled, Material Loss Review of
                  EvergreenBank, Seattle, Washington (Assignment No. 2010-024)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of
EvergreenBank, Seattle, Washington (Evergreen), which failed on January 22, 2010. This
memorandum is the response of the Division of Supervision and Consumer Protection (DSC) to
the OIG’s Draft Report (Report) received on July 16, 2010.

The Report concludes Evergreen failed due to the Board and management’s aggressive pursuit of
loan growth primarily funded with brokered deposits and Federal Home Loan Bank borrowings.
Evergreen’s management decision to concentrate the loan portfolio in acquisition, development,
and construction (ADC) loans, its aggressive growth in speculative residential condominium and
townhouse construction and land development projects, and its reliance on wholesale funding
sources were the principal factors leading to Evergreen’s deteriorating financial condition and
failure. Evergreen’s overall weak loan administration in a deteriorating real estate market
resulted in increased delinquencies and non-performing assets. Evergreen was unable to raise
sufficient capital to absorb the loan losses, support its operations, and maintain liquidity.

As part of DSC’s supervisory program from 2005 through January 2010, the FDIC and the
Washington State Department of Financial Institutions (DFI) jointly and separately conducted
four full-scope examinations. The FDIC also conducted an offsite review and other offsite
monitoring activities. At the August 2008 examination, DFI examiners downgraded the
institution to a composite 3 rating and noted a heightened risk due to high concentrations in ADC
lending. FDIC immediately began offsite monitoring of the steps Evergreen’s management took
to address recommendations contained in the 2008 report, including steps to address the credit
administration and loan review issues. Based on an offsite review, the FDIC further downgraded
Evergreen to a composite 4 rating in March 2009. At the FDIC and DFI joint examination in
June 2009, examiners found that Evergreen had further deteriorated to a level that raised
significant regulatory concern and posed considerable risk. This elevated risk level resulted in a
downgrade to a composite 5 rating and implementation of a formal enforcement action.
Evergreen management was unable to correct the deficiencies, and Evergreen ultimately failed.

DSC recognizes that strong supervisory attention is necessary for institutions with high
commercial real estate and ADC concentrations and volatile funding sources, such as Evergreen,
and has issued updated guidance reminding examiners to take appropriate action when those
risks are imprudently managed.

Thank you for the opportunity to review and comment on the Report.

                                                     26
